   ON-BOARD JAMMERS FOR THE INTEGRATED DEFENSIVE
           ELECTRONIC COUNTERMEASURES

Report No. D-2001-086                      March 20, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASPJ                  Airborne Self-Protection Jammer
IDECM                 Integrated Defensive Electronic Countermeasures
                       Office of the Inspector General, DoD
Report No. D-2001-086                                                    March 20, 2001
   (Project No. D2000AL-0243)

              On-Board Jammers for the Integrated Defensive
                      Electronic Countermeasures

                                Executive Summary

Introduction. The Integrated Defensive Electronic Countermeasures suite is intended
to provide self-protection and increased survivability for tactical aircraft against radio
frequency and infrared surface-to-air and air-to-air threats. The Navy-led program is
designed to fill the electronic self-protection operational deficiency for the Navy
F/A-18 E/F aircraft and will be integrated on the Air Force’s B-1B and F-15 aircraft.
The major hardware components to be developed are the AN/ALQ-214 radio frequency
countermeasures system and the AN/ALE-55 Fiber Optics Towed Decoy. Total
program cost is estimated to be $2.7 billion (then-year dollars). The AN/ALQ-214
development cost is $85.8 million and the procurement cost is $1.1 billion (458 units at
$2.3 million each). The Navy plans to have an inventory of 366 radio frequency
countermeasures systems and 10,980 decoys. The Air Force plans to have an inventory
of 92 radio frequency countermeasures systems, 3,069 decoys for the B-1B, and
15,048 decoys for the F-15.

Objectives. The overall objective was to evaluate the test planning and requirements
for the AN/ALQ-165 and AN/ALQ-214 on-board jammers. We also reviewed the
management control program as it applied to our audit objective.

Results. The Navy significantly reduced mission reliability from the level
recommended in the cost and operational effectiveness analysis. The Navy reduced the
requirements so that the AN/ALQ-165 Airborne Self-Protection Jammer, which the
Navy plans to use in Block I of the Integrated Defensive Electronic Countermeasures
Suite, could pass the operational test and evaluation and be installed on the F/A-18 E/F
aircraft. Furthermore, the AN/ALQ-214, which will be the on-board jammer for
Blocks II and III of the Integrated Defensive Electronic Countermeasures Suite will be
tested against the same operational suitability requirements. By reducing the mission
reliability rate, the Navy’s logistical support requirement may have to be significantly
increased in order to accomplish a 90 percent operational availability rate for the
system. At the reduced mission reliability rate, unscheduled maintenance may be
required up to 2.5 times more often than if the system met the mission reliability rate
recommended by the cost and operational effectiveness analysis. Additionally, it is
unclear whether the additional protection provided by the on-board jamming capability
justifies the investment in the development, acquisition and logistical support. For
details of the audit results, see the Finding section of this report. Management controls
were adequate in that we did not identify any systemic management control weakness
applicable to our audit objective. See Appendix A for details on the management
control program.
Summary of Recommendations. We recommend that the Program Manager,
Integrated Defensive Electronic Countermeasures, prior to proceeding with Block II of
the Program, determine the logistics support cost to maintain the on-board jamming
capability based on the results of the operational test and evaluation. We also
recommend that the Program Manager reassess whether the on-board jamming
capability provides an amount of added protection that justifies its development,
acquisition, and logistical support costs.

Navy Comments. The Deputy Assistant Secretary of the Navy for Air Programs (the
Deputy Assistant Secretary) nonconcurred with the finding, stating that the mission
reliability requirement was based upon a systems engineering analysis; that current
logistics cost requirements were based upon the system (including on-board jammers)
as it was intended to be fielded; and that, as non-developmental items, the on-board
jammers have minimal impact in terms of development, acquisition and logistics costs.

The Deputy Assistant Secretary agreed to review the logistics support costs in
preparation for the Milestone III decision but did not agree to reassess whether the
added protection provided by having on-board jamming capability justifies its
development, acquisition and logistical support costs. The Assistant Secretary stated
that cost versus benefit of on-board jamming capability was assessed by the Johns
Hopkins University Applied Physics Laboratory in May 1999 and that another
reassessment is not necessary. A discussion of the management comments is in the
Finding section of this report, and the complete text is in the Management Comments
section.

Audit Response. On January 19, 1995, the Johns Hopkins University Applied Physics
Laboratory issued a cost and operational effectiveness analysis on alternative electronic
warfare suites. The analysis recommended that the preferred alternative, regardless of
whether that system utilized an on-board jammer, have a mission reliability requirement
of 94 percent. The system being developed by the Navy does not meet that
requirement. Furthermore, discussions with officials of the Office of the Deputy Chief
of Naval Operations (Resources, Requirements, and Assessments) indicated that the
Navy was aware that Block I of the Integrated Defensive Electronic Countermeasure
(the Airborne Self-Protection Jammer and the existing AN/ALE-50 Towed Decoy)
would be destined for failure if the system was required to meet a 94 percent mission
reliability. We agree that using Airborne Self-Protection Jammer as the on-board
jammer for Block I of the Integrated Defensive Electronic Countermeasure will have
minimal impact in terms of development and acquisition costs. However, we disagree
that development and procurement costs of AN/ALQ-214 for Blocks II and III of the
Integrated Defensive Electronic Countermeasure are insignificant. The AN/ALQ-214
development cost is $85.8 million and the procurement cost is $1.1 billion (458 units at
$2.3 million each). This represents about 44 percent of the $2.7 billion total program
costs for the integrated defensive electronic countermeasure.

We consider the Navy statement that it will review the logistics support costs before the
Milestone III decision to be responsive to the recommendation. The May 1999 analysis
referenced by the Navy determined that, although the use of the towed decoy was the
most effective alternative against threats, consideration should be given to using on-
board transmitters in conjunction with the towed decoy system as part of the F/A-18
electronic warfare suite. However, the analysis did not address the cost versus the
additional benefit that on-board transmitters would provide. Therefore, we request that
the Deputy Assistant Secretary of the Navy for Air Programs provide additional
comments by May 21, 2001.

                                            ii
Table of Contents

Executive Summary                                                              i


Introduction
     Background                                                                1
     Objectives                                                                2

Finding
     Operational Requirements of the Integrated Defensive Electronic
       Countermeasures Suite                                                   3

Appendixes
     A. Audit Process
          Scope and Methodology                                               13
          Management Control Program Review                                   14
          Prior Coverage                                                      15
     B. Mission Reliability and Built-in-Test Effectiveness of the Airborne
         Self-Protection Jammer                                               16
     C. Report Distribution                                                   17

Management Comments
     Department of the Navy                                                   19
Background
    In May 1992, the Director, Operational Test and Evaluation, assessed that the
    AN/ALQ-165 Airborne Self-Protection Jammer (ASPJ) was not operationally
    effective during operational test and evaluation. The Director, Operational Test
    and Evaluation, also assessed ASPJ as not operationally suitable because it did
    not meet required criteria for mission reliability or built-in-test effectiveness.
    Mission reliability is the probability that a system will perform mission-essential
    functions for a period of time under conditions stated in the mission profile.
    Built-in-test effectiveness is the probability that built-in-tests will correctly detect
    a fault, which minimizes the removal of components because of incorrect
    indications from the built-in-tests. On December 15, 1992, DoD canceled the
    ASPJ program and production was terminated.

    After cancellation of the ASPJ program, the Navy conducted analyses that
    generated a requirement for a tactical aircraft self-protection capability against
    radio frequency and infrared surface-to-air and air-to-air threats. The Integrated
    Defensive Electronic Countermeasures (IDECM) Mission Need Statement
    discusses deficiencies in five areas:

            •       self-contained radio frequency self-protection,

            •       missile approach warning,

            •       infrared and ultraviolet expendables,

            •       integration of the subsystems of the self-protection suite, and

            •       identification of precise direction of radio frequency transmitters.

    Development of the IDECM suite began in FY 1996 as an Acquisition
    Category II program. The IDECM program began as only an off-board
    jammer, specifically the Fiber Optic Towed Decoy, with a complementary on-
    board radio frequency jammer capability as a possible upgrade. The IDECM
    suite was intended to provide greater self-protection and increased survivability
    against a wider range of threats than an aircraft without self-protection or was
    equipped with existing countermeasures. The IDECM suite is a Navy-led
    program designed for the F/A-18 E/F aircraft to resolve the electronic self-
    protection operational deficiency. Portions of the suite will also be integrated
    on the Air Force’s B-1B and F-15 aircraft. The major hardware components to
    be developed are the IDECM radio frequency countermeasures system
    (AN/ALQ-214) and the AN/ALE-55 Fiber Optics Towed Decoy.

    Cost and technical issues have caused schedule delays in the IDECM program.
    To ensure that the initial deployments of the F/A-18 E/F aircraft have self-
    protection, the Navy decided to include an on-board radio frequency jammer in




                                           1
     the suite. The Director, Air Warfare Division, Office of the Deputy Chief of
     Naval Operations (Resources, Requirements and Assessments), added the
     requirement for on-board jammers to provide protection in the event that the
     three available towed decoys were expended or failed to operate. To reduce
     risk and to provide the electronic warfare protection, the Navy established a
     phased approach. Three sequential phases of on-board jammers and towed
     decoys were to be used.

             •     IDECM Block I would use the ASPJ and the AN/ALE-50 Towed
                   Decoy. These are existing systems that the Navy would use until
                   the AN/ALQ-214 could be integrated.

             •     IDECM Block II would use the AN/ALQ-214 and the
                   AN/ALE-50 Towed Decoy.

             •     IDECM Block III would use the AN/ALQ-214 and AN/ALE-55
                   Fiber Optic Towed Decoy.

     Our audit focused on the test planning and requirements for the ASPJ and
     AN/ALQ-214 on-board jammers.

     The Navy plans to have an inventory of 366 AN/ALQ-214 systems and
     10,980 AN/ALE-55 decoys. The Air Force plans to have an inventory of
     92 AN/ALQ-214 systems, 3,069 AN/ALE-55 decoys for the B-1B, and 15,048
     AN/ALE-55 decoys for the F-15. The prime contractor for the IDECM
     program is Sanders, and the total program cost is estimated to be $2.7 billion
     (then-year dollars). The AN/ALQ-214 development cost is $85.8 million and
     the procurement cost is $1.1 billion (458 units at $2.3 million each).

Objectives
     The overall objective was to evaluate the test planning and requirements for the
     ASPJ and the AN/ALQ-214 on-board jammers. We also reviewed the
     management control program as it applied to the audit objective. See
     Appendix A for a discussion of the audit scope and methodology and the review
     of the management control program.




                                         2
            Operational Requirements of the
            Integrated Defensive Electronic
            Countermeasures Suite
            The Navy reduced the mission reliability requirements from the level
            recommended by the cost and operational effectiveness analysis. The
            Navy reduced the requirements so that the ASPJ, which the Navy plans
            to use as the on-board jammer portion in Block I of the IDECM suite,
            could pass the operational evaluation and be installed on the F/A-18 E/F
            aircraft. Furthermore, the AN/ALQ-214, which will be the on-board
            jammer for Blocks II and III of the IDECM suite, will be tested against
            the same mission reliability requirements. By reducing the mission
            reliability rate, the Navy’s logistical support requirement may have to be
            significantly increased in order to accomplish a 90 percent operational
            availability rate for the system. At the reduced mission reliability rate,
            unscheduled maintenance may be required as much as 2.5 times more
            often than if the system met the mission reliability rate recommended by
            the cost and operational effectiveness analysis. Additionally, it is
            unclear whether the additional protection provided by the on-board
            jamming capability justifies the investment in the development,
            acquisition and logistical support.

Evolution of the Integrated Defensive Electronic
  Countermeasures System
     In the 1992 operational test and evaluation, the ASPJ was determined not
     operationally suitable because the ASPJ could not meet the requirement
     threshold for mission reliability and built-in-test effectiveness. Mission
     reliability is a measure of a system’s operational effectiveness and is stated in
     terms of the probability of completing a specific mission profile or as a function
     of the mean time between operational mission failures. Built-in-test
     effectiveness is the probability of built-in-tests correctly detecting a fault. See
     Appendix B for more detailed information on the results of the ASPJ operational
     test and evaluation relating to mission reliability and built-in-test effectiveness.

     Because the system did not meet operational suitability requirements, and did
     not meet the operational effectiveness requirement, the program was canceled
     and production was terminated. Termination of the ASPJ Program left the Navy
     with deficiencies related to tactical aircraft self-protection. On September 8,
     1993, the Under Secretary of Defense for Acquisition (now Acquisition,
     Technology, and Logistics) informed the chairmen and ranking members of the
     Armed Services and Appropriations Committees of the Senate and House of
     Representatives of his intent to direct the Navy to conduct a cost and operational
     effectiveness analysis of the F/A-18 electronic warfare suite.




                                          3
Cost and Operational Effectiveness Analysis. The Navy contracted with the
Johns Hopkins University Applied Physics Laboratory to perform a cost and
operational effectiveness analysis. The analysis was issued on
January 19, 1995. The analysis addressed the first four deficiencies in the
IDECM Mission Need Statement and evaluated four electronic warfare suite
alternatives for the F/A-18 E/F. The analysis concluded that the electronic
warfare suites that included a Fiber Optic Towed Decoy were the most effective
suites. This analysis also showed that the Fiber Optic Towed Decoy without an
on-board jammer was generally the most cost-effective suite and that it became
more cost-effective as the threat environment increased.

Initiation of the IDECM Program. The IDECM Program began as an
off-board jammer, specifically the Fiber Optic Towed Decoy, with a
complementary on-board radio frequency jammer capability as a possible
upgrade. The Operational Requirements Document, July 1, 1998, established
mission reliability for the system at 94 percent, as recommended in the cost and
operational effectiveness analysis. However, technical issues had stressed the
program’s schedule. System development was at a much slower pace than
expected, leading to cost and schedule overruns. These technical issues
included towline integrity of the Fiber Optic Towed Decoy, reliability of the
decoy, and Improved Multi-Platform Launch Controller used to launch the
decoys. To ensure that the initial deployments of the F/A-18 E/F aircraft had
self-protection, the Navy decided to include an on-board radio frequency
jammer in the suite. The Director, Air Warfare Division, Office of the Deputy
Chief of Naval Operations (Resources, Requirements and Assessments), added
the requirement for on-board jammers to provide protection in the event that the
three available towed decoys were expended or failed to operate during a
mission.

Cost and Operational Effectiveness Analysis Revisited. On May 20, 1999,
the Johns Hopkins University Applied Physics Laboratory released an analysis
entitled, “Use of On-board Transmitters with the Integrated Defensive
Electronic Countermeasures System.” The document reexamined the
Milestone II cost and operational effectiveness analysis to determine whether the
previous recommendations should be revised. The analysis determined that,
although the use of the towed decoy was the most effective alternative against
threats, consideration should be given to using on-board transmitters in
conjunction with the towed decoy system as part of the F/A-18 electronic
warfare suite. The analysis also noted that some assets were available from the
terminated ASPJ production. On-board transmitters provide an additional
capability to counter radio frequency guided missile threat when:

       •      the radio frequency of the threat is below that of the Fiber Optic
              Towed Decoy, but within that of the on-board system;

       •      the aircraft does not have a decoy deployed;

       •      a decoy fails and a new decoy has not yet become operational;
              and

       •      all of the decoys have been expended.


                                    4
The cost and operational effectiveness analysis viewed the on-board jamming
capability as a redundant system, intended to supplement the Fiber Optic Towed
Decoy and not to be the primary system for providing electronic warfare
protection. The cost and operational effectiveness analysis stated:
           Assuming that the aircraft survives but loses a decoy each time it is
           engaged, it will have lost all of its decoys by the end of the third
           engagement. If the aircraft has onboard transmitters, it will have
           some capability to counter subsequent threats with radio frequency
           countermeasures (RFCM). However, discussions with operational
           personnel during the COEA [Cost and Operational Effectiveness
           Analysis] indicated that they would most likely exit the threat area as
           quickly as possible after the first time they were engaged. This was
           partially driven by the fact that their tactic for defeating missiles in the
           endgame included a maximum-g maneuver. Because the aircraft is
           more maneuverable without ordnance, they would generally jettison
           their air-to-ground ordnance prior to performing the endgame
           maneuver. If the aircraft survives, there would not be any reason for
           the aircraft to continue its mission in the threat area other than to
           provide support for aircraft that had not jettisoned their ordnance.
           Thus, the probability that the aircraft would be engaged more than
           three times during a mission was minimal.

Addition of On-Board Jammer Capability. The Navy had about 40 ASPJs
that could be used to provide electronic warfare protection for the F/A-18 E/F.
The Navy considers the use of the ASPJ as an interim solution until Block II is
implemented. The Navy established a phased approach to provide the electronic
warfare protection for the F/A-18 E/F. Three sequential phases for deployment
of on-board jammers and towed decoys were to be used.

       •       IDECM Block I would use the existing inventory of ASPJ and the
               existing AN/ALE-50 Towed Decoy until the AN/ALQ-214 could
               be integrated.

       •       IDECM Block II would use the AN/ALQ-214 and the
               AN/ALE-50 Towed Decoy.

       •       IDECM Block III would use the AN/ALQ-214 and AN/ALE-55
               Fiber Optic Towed Decoy.

Block III supposedly will provide increased effectiveness through the use of
integrated Fiber Optic Towed Decoy techniques and increased reliability and
would be eventually replace the Block I and II configurations on the F/A-18 E/F
aircraft.




                                           5
Requirements and Test Planning for the Integrated Defensive
  Electronic Countermeasures System
     Development of the Operational Requirements Documents for the On-board
     Jammers for IDECM. Operational testing was required before the Navy could
     obtain approval to install the ASPJ on the F/A-18 E/F aircraft as Block I of the
     IDECM Program. For the system to be tested, the Navy needed a test plan,
     which in turn required a Test and Evaluation Master Plan. Since the Test and
     Evaluation Master Plan establishes tests to determine whether the system
     satisfies criteria established in the Operational Requirements Document, the
     Navy wrote a new Operational Requirements Document that incorporated
     equipment that it owned and that had previously failed operational test and
     evaluation requirements in 1992.

     Test Plan for the Operational Evaluation of the On-Board Jammers. Test
     Planning for the ASPJ and the AN/ALQ-214 on-board jammers to be used in the
     IDECM suite was extensive. A Test and Evaluation Master Plan was developed
     for each block of the IDECM suite. The IDECM Test and Evaluation Master
     Plan states that successful demonstration of the operational effectiveness and
     operational suitability requirements established in the On-Board Jammer
     Operational Requirements Document is required prior to fleet installation and
     deployment.

             Operational Effectiveness. In May 1992, the Director of Operational
     Test and Evaluation assessed ASPJ as not being operationally effective because
     it did not meet the requirement threshold value for increasing the survivability
     of an F/A-18 strike force over that of a non-ASPJ baseline F-18 strike force.
     Although the requirements are not as stringent as those in the 1992 operational
     test and evaluation of ASPJ, the IDECM test plans require that the IDECM
     on-board jammers demonstrate that they are measurably more operationally
     effective than the AN/ALQ-126B on-board jammer and an aircraft without a
     self-protection capability.

             Operational Suitability. The 1992 operational test and evaluation
     determined that the ASPJ was not operationally suitable because it could not
     meet the requirement thresholds for mission reliability and built-in-test
     effectiveness. The following table summarizes the reduction in requirements
     from the 1992 ASPJ Test and Evaluation Master Plan and the current
     Operational Requirements Document for IDECM. If the ASPJ had been tested
     against the reduced requirements, rather than the requirements it was tested
     against in 1992, the ASPJ would have been found to be operationally suitable
     and the program might not have been terminated.




                                         6
    Differences Between the 1992 ASPJ and IDECM On-Board Jammers
                 Operational Suitability Test Requirements
                                                             IDECM Onboard
                   Requirement                 ASPJ            Jammers

       Mission Reliability (percent)            95                  86
       Mean Corrective Maintenance              45                 120
        Time for Operational
        Mission Failures (minutes)
       Probability of Correct                   90                 80
        Detection (percent)
       Built-in-Test False                10 percent*     5 per 100 flight hours
        Alarm Rate


*
 In the 1992 Operational Test and Evaluation, the 10 percent requirement for Built-in-Test
False Alarm Rate equated to 2 incorrect removals per 100 flight hours.


A mission reliability threshold reflects the recommended operational level at
which the aircraft’s electronic warfare suite should perform in the threat
environment. The Navy reduced the mission reliability requirement from
94 percent, as recommended in the cost and operational effectiveness analysis,
to 86 percent in the Operational Requirements Document. The mission
reliability requirement was reduced due to the inclusion of the improved multi-
platform launch controller, launcher, on-board transmitters, and other aircraft
hardware in scoring test failures.
The IDECM Program Management Office calculated that the reliability of the
original configuration of the system could achieve the recommended 94 percent
mission reliability threshold. This configuration comprised only the technique
generator, fiber optic towed decoy, and a signal conditioning assembly.
However, the independent testers of the system indicated that testing the
reliability of only the off-board portion of the system would not accurately
represent the mission reliability of the aircraft’s electronic warfare suite.
Therefore, additional components such as the on-board transmitter, the
Improved Multi-Platform Launch Controller, and other components were
included in the predicted reliability calculations. After incorporating those items
into the reliability model, the predicted mission reliability of the aircraft’s
electronic warfare dropped below the 94 percent threshold. Discussions
between the IDECM Program Management Office and the independent testers
indicated that Block I of the IDECM program, as configured, would not pass if
the system was tested against the mission reliability requirement of 94 percent.
Subsequently, the Navy revised the mission reliability requirement in the revised
Operational Requirement Document to reduce the mission reliability to


                                           7
86 percent, which is a mean time between the operational mission failure
requirement of 12 hours for the new configuration of the IDECM system. As
such, the requirement in the Operational Requirements Document and test
planning documentation represents what the entire system configuration must
achieve under the independent testers scoring philosophy. Officials from the
IDECM Program Management Office stated that the 86 percent requirement for
mission reliability is not the performance level at which the system should
perform if only essential countermeasure components, the AN/ALQ-214 and the
AN/ALE-55 Fiber Optic Towed Decoy, were considered in scoring mission
reliability.

The Navy also eased the requirement for built-in-test effectiveness for incorrect
component removals caused by built-in-test fault indications in Blocks I, II, and
III of IDECM to five removals for each 100 hours of flight time. In the
1992 operational test and evaluation, the ASPJ failed with two incorrect
removals per 100 flight hours.

In addition to mission reliability and built-in-test effectiveness, the Navy
changed the operational suitability requirement for mean corrective maintenance
time for operational mission failures from 45 minutes to 2 hours. The IDECM
Program Management Office stated that the requirement was changed due to the
addition of hardware and in response to lessons learned from previous
operational tests where support equipment used to troubleshoot failures
increased the corrective maintenance time.

Test Requirements for the AN/ALQ-214 On-Board Jammer. The on-board
jammer for the Block II and Block III versions of the IDECM suite, the
AN/ALQ-214, will be tested against the same requirements used to evaluate the
ASPJ in Block I testing. The AN/ALQ-214 design is based on the ASPJ design
and has about 60 percent commonality with the ASPJ.

Effect of Reduced IDECM Mission Reliability. We were unable to determine
any impact that the reduction in mission reliability would have on loss of
aircraft. However, the reduction in mission reliability will have a significant
impact on operations and maintenance costs.

         Aircraft Attrition. The cost and operational effectiveness analysis
released in January 1995 by the Johns Hopkins University Applied Physics
Laboratory also examined the impact of reliability on the expected number of
aircraft losses. The analysis showed that maintaining mean time between
operational mission failures of 30 hours or higher produced no changes in
predicted aircraft attrition rates. For a 1.8-hour mission, a mean time between
operational mission failure of 30 hours equates to a mission reliability of
94 percent. The cost and operational effectiveness analysis stated that a
significant increase in attrition of aircraft would occur if the mission reliability
were less than 94 percent. However, discussions with officials at the Johns
Hopkins University Applied Physics Laboratory indicated that a lower mission
reliability would have a negligible effect on the attrition of aircraft. Using the




                                      8
same formula, we analyzed the impact of an 86 percent mission reliability on the
expected number of aircraft losses. The analysis showed that reducing the mean
time between operational mission failures produced only slight changes in the
predicted number of aircraft losses.

         Impact on Logistical Support. The reduction in mission reliability will
impact the logistical support for the IDECM. At an 86 percent mission
reliability rate, or a mean time between operational mission failure of 12 hours,
unscheduled maintenance may be required as much as 2.5 times more often than
if the system met the recommended mission reliability rate. The Operational
Requirements Document states that the objective value for mean time between
operational mission failure is 150 hours. That value would be more in line with
the mean time between operational mission failure for other countermeasure
systems; however, we have not seen any progression towards measuring a
higher mean time between operational mission failure for IDECM in the
requirements or test planning documentation. An official at the IDECM
Program Management Office detachment in Jacksonville, Florida, informed us
that the AN/ALQ-126B on-board jammer, which the IDECM on-board jammers
will be tested against, was achieving a mean time between failure rate of
223 hours. However, the official stated that the operational availability of the
AN/ALQ-126B was 78 percent because they are only used if the fleet is going to
combat. The AN/ALE-50 towed decoy requirement for mean time between
operational mission failure that will be measured in the Block I Operational Test
and Evaluation is 100 hours.

Although the Navy reduced the mission reliability of the IDECM, it kept the
requirement for operational availability of the IDECM suite at 90 percent.
Operational availability is the degree that equipment or weapons systems are
expected to work properly. Operational availability is one of the key
performance parameters in the Operational Requirements Document. Key
performance parameters are those so significant that failure to meet the
threshold value of performance can be a cause for the concept or system to be
reevaluated or the program to be reassessed or terminated. Although the Navy
might be able to accomplish a 90 percent operational availability in a short test
period, we do not believe that the Navy will be willing to fund the additional
maintenance actions and obtain the spare parts needed to keep the IDECM
90 percent operationally available if the system only has a mean time between
operation mission failure of 12 hours. Accordingly, the Navy’s logistical
support requirement may have to be significantly increased to accomplish a
90 percent operational availability rate for the system. If the Navy does not
provide the logistics support needed to accomplish a 90 percent operational
availability rate, operational effectiveness of the IDECM system will be further
reduced.

Test Results. We recognize that the mission reliability requirement defines the
minimum acceptable performance standard. The mission reliability requirement
neither predicts the actual system or component failure rates, nor determines the
anticipated logistic support requirements. Failure rates are predicted based on
analysis and testing of analogous systems and components, testing of actual




                                    9
    system hardware, and engineering estimates when appropriate. Those predicted
    failure rates are then used to determine the expected level of logistic support
    required.

Conclusion
    Although the ASPJ Program was terminated 8 years ago, the Navy intends to
    use the ASPJ in Block I of the IDECM to satisfy the F/A-18 E/F requirement
    for self-protection capability against radio frequency and infrared surface-to-air
    and air-to-air threats. Even though the Navy reduced the mission reliability
    requirements established by the cost and operational effectiveness analysis,
    Block I of IDECM should provide the F/A-18 E/F with an amount of protection
    that is not otherwise available against the threat. Since Block I will use the
    existing inventory of ASPJ and AN/ALE-50 Towed Decoy, there will be no
    additional system procurement costs, only support costs.

    However, the on-board jamming capability--the ASPJ and the AN/ALQ-214--
    are redundant systems intended to supplement the Fiber Optic Towed Decoy,
    not to be primary systems for providing electronic warfare protection. Given
    the reduced mission reliability rate, it is unclear how much more protection is
    being provided by these systems and whether the Navy will fund the additional
    logistical support costs.

Management Comments on the Finding and Audit Response
    Navy Comments. The Deputy Assistant Secretary of the Navy for Air
    Programs (the Deputy Assistant Secretary) nonconcurred with the finding,
    stating that the mission reliability requirement was not reduced to allow the
    Airborne Self-Protection Jammer to pass the Operational Evaluation for Block I.
    The mission reliability requirement contained in the Operational Requirements
    Document for the Integrated Defensive Electronic Countermeasures was based
    upon systems engineering analysis.

    The Deputy Assistant Secretary did not agree that the Navy’s logistical support
    requirement might have to be significantly increased because of the reduction in
    the mission reliability requirement. The Deputy Assistant Secretary stated that
    current logistics cost requirements were based upon the system (including on-
    board jammers) as it was intended to be fielded.

    The Deputy Assistant Secretary also did not agree that it was unclear whether
    the additional protection provided by on-board jamming capability justifies the
    investment in the development, acquisition, and logistical support. The Deputy
    Assistant Secretary provided circumstances under which on-board jammers are
    expected to improve survivability of the aircraft and stated that, as non-
    developmental items, the on-board jammers have minimal impact in terms of
    development, acquisition, and logistics costs.




                                        10
    For the full text of the Navy comments, see the Management Comments section
    of this report.

    Audit Response. On January 19, 1995, the Johns Hopkins University Applied
    Physics Laboratory issued a cost and operational effectiveness analysis on
    alternative electronic warfare suites. The analysis recommended that the
    preferred alternative, regardless of whether that system utilized an on-board
    jammer, have a mission reliability requirement of 94 percent. The system being
    developed by the Navy does not meet that requirement. Furthermore,
    discussions with officials of the Office of the Deputy Chief of Naval Operations
    (Resources, Requirements, and Assessments) indicated that the Navy was aware
    that Block I of IDECM (the ASPJ and the existing AN/ALE-50 Towed Decoy)
    would be destined for failure if the system was required to meet a 94 percent
    mission reliability.
    The Deputy Assistant Secretary did not address the increased logistical support
    requirement as a result of reducing the requirement, but rather the current
    logistics cost requirements now that the Navy has reduced the mission reliability
    requirement.

    We agree with the Deputy Assistant Secretary, as stated in the report, that on-
    board transmitters would provide an additional capability to counter radio
    frequency guided missile threat in certain circumstances. We also agree that
    using the ASPJ as the on-board jammer for Block I of IDECM will have
    minimal impact in terms of development and acquisition costs. However,
    development and procurement of the AN/ALQ-214 for Blocks II and III of
    IDECM is significant. The AN/ALQ-214 development cost is $85.8 million
    and the procurement cost is $1.1 billion (458 units at $2.3 million each), which
    represents about 44 percent of the $2.7 billion total program costs for IDECM.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Program Manager, Integrated Defensive Electronic
    Countermeasures, prior to proceeding with Block II of the Program:

          1. Determine the logistics support cost to maintain the on-board
    jamming capability based on the results of the Operational Test and
    Evaluation.

    Navy Comments. The Deputy Assistant Secretary concurred, stating that the
    Navy intends to review the logistics support costs in the normal course of
    preparing for the Milestone III decision planned for the third quarter of
    FY 2002. For the full text of the Navy comments, see the Management
    Comments section of this report.




                                       11
        2. Reassess whether the on-board jamming capability provides an
amount of added protection that justifies its development, acquisition and
logistical support costs.

Navy Comments. The Deputy Assistant Secretary nonconcurred, stating that
the Johns Hopkins University Applied Physics Laboratory assessed the cost
versus benefit of having an on-board jamming capability in May 1999 and that
another assessment was not necessary. For the full text of the Navy comments,
see the Management Comments section of this report.

Audit Response. The Johns Hopkins University Applied Physics Laboratory
performed two cost and operational effectiveness analyses for IDECM. The
January 1995 analysis concluded that the electronic warfare suites that included
a Fiber Optic Towed Decoy were the most effective suites. That analysis also
showed that the Fiber Optic Towed Decoy without an on-board jammer was
generally the most cost-effective suite and that it became more cost-effective as
the threat environment increased. The May 1999 analysis summarized the
results of the January 1995 analysis as follows:
           Because the advantages of onboard transmitters were assessed to be
           somewhat limited and there was a significant cost increase associated
           with the addition of onboard transmitters, the COEA [cost and
           operational effectiveness analysis] recommended that the onboard
           transmitters should not be included in the basic EW [electronic
           warfare] suite.

The May 1999 analysis determined that, although the use of the towed decoy
was the most effective alternative against threats, consideration should be given
to using on-board transmitters in conjunction with the towed decoy system as
part of the F/A-18 electronic warfare suite. However, the May 1999 analysis
did not address the cost versus the additional benefit that on-board transmitters
would provide.




                                       12
Appendix A. Audit Process

Scope and Methodology
    We reviewed documentation dated from May 1992 through September 2000.
    We used criteria in the DoD Regulation 5000.2-R to perform the audit. To
    accomplish the audit objectives, we took the following steps:

           •      determined that a valid requirement still existed for a replacement
                  to the AN/ALQ-126B jammer;

           •      determined the users had approved the operational requirements;

           •      determined the IDECM program’s operational test and evaluation
                  included all of the system’s operational requirements, as defined
                  in the Operational Requirements Document; and

           •      reviewed management controls related to the audit objective.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We used mechanical and electronics engineers
    from the Technical Assessment Division, Office of the Inspector General, DoD,
    to assist us in analyzing and evaluating the operational suitability testing
    requirements for IDECM.

    Audit Period and Standards. We performed this program audit from July 2000
    through November 2000, in accordance with standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD, and included such tests of management controls as deemed
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. We also visited or contacted individuals and
    organizations at the Johns Hopkins University Applied Physics Laboratory.
    Further details are available upon request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.


                                        13
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure.(01-DoD-02)

           •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
               needs smarter and faster, with products and services that work better
               and cost less, by improving the efficiency of DoD acquisition
               processes. (01-DoD-2.4)

           •   FY 2001 Performance Measure 2.4.3: Successful Completion of
               System Operational Test and Evaluation (OT&E) Events.
               (01-DoD-2.4.3)

           General Accounting Office High-Risk Area. The General Accounting
           Office has identified several high-risk areas in the DoD. This report
           provides coverage of the Defense Weapons Systems Acquisition
           high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD managers to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, and DoD
    Regulation 5000.2-R, Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information System Acquisition
    Programs (MAIS),” May 11, 1999, acquisition managers are to use program
    cost, schedule, and performance parameters as control objectives to implement
    the requirements of DoD 5010.38. Accordingly, we limited our review to
    management controls directly related to test planning of the IDECM.

    In evaluating the management control process, we reviewed the risk-
    management program to determine the level of risk that the officials assigned to
    aspects of IDECM. We also reviewed the FY 1999 and 2000 Annual
    Statements of Assurance for the Navy to determine whether any weaknesses had
    been reported relating to the IDECM program. Because we did not identify a
    material management control weakness, we did not assess management’s
    self-evaluation.

    Adequacy of Management Controls. Management controls were adequate in
    that we did not identify any systemic management control weakness applicable
    to our audit objective.




                                       14
Prior Coverage
    During the last 5 years, no reports have been issued related to the test planning
    and requirements for the on-board jammers for the F/A-18 E/F aircraft.




                                        15
Appendix B. Mission Reliability and Built-in-
            Test Effectiveness of Airborne
            Self-Protection Jammer

Mission Reliability
     Mission reliability is a measure of a system’s operational effectiveness and is
     stated in terms of the probability of completing a specific mission profile or as a
     function of the mean time between operational mission failures. For a given
     mission of time, mission reliability is calculated by taking the natural logarithm
     of the negative quotient of the mission of time divided by the mean time
     between operational mission failure. The mean time between operational
     mission failure is calculated by dividing the total system operating time by the
     number of operational mission failures. System operating time includes only the
     time the system is operating and being stressed under operational loads. It does
     not include standby time. For aircraft, system operating time is measured from
     the attempt to start the aircraft with the intent to perform a mission until
     shutdown. An operational mission failure is one that prevents the system from
     performing one or more mission essential functions. In the 1992 Operational
     Test and Evaluation of the ASPJ, the requirement for mean time between
     operational mission failure was 33.3 hours, which equates to a 95 percent
     mission reliability. In the test, the ASPJ was able to achieve 22.7 hours, a
     92 percent mission reliability.

Built-in-Test Effectiveness
     Built-in-test effectiveness is the probability of built-in-tests correctly detecting a
     fault. Built-in-test inadequacies were a significant factor in the ASPJ failing to
     meet mission reliability requirements in the 1992 Operational Test and
     Evaluation. The probability of built-in-tests correctly detecting a fault was
     64 percent versus a criterion of at least 90 percent. The removal of components
     where built-in-tests incorrectly indicated that the component was faulty far
     exceeded the criteria of 10 percent. More than 48 percent of the components
     removed as a result of built-in-test fault indications were not actual failures.
     The ASPJ failed the operational test and evaluation with 2 incorrect removals
     per 100 flight hours. It was stated in the “Operational Test and Evaluation
     Report on the AN/ALQ-165 (V) Airborne Self-Protection Jammer (ASPJ)”
     December 4, 1992, that:
                …at the organizational level, pilots and maintenance personnel cannot
                differentiate between an actual hardware failure or a software fault,
                including BIT- [built-in-test] related problems. The critical failure
                criterion could have been met if the false removals had not occurred.




                                            16
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Director, Operational Test and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Chief of Naval Operations
Naval Inspector General
Auditor General, Department of the Navy
Program Executive Officer, Tactical Aircraft Programs
   Program Manager, Integrated Defensive Electronic Countermeasures

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistic Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency
Defense Systems Management College




                                          17
Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         18
Department of the Navy Comments




                  19
20
21
22
23
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

Thomas F. Gimble
Mary L. Ugone
Charles M. Santoni
Robert L. Shaffer
Rebecca L. Deats
Gary D. Butler
Jaime A. Bobbio
Chandra P. Sankhla
Wei K. Chang
Jenshel L. Marshall
Krista S. Gordon
